Department of Health and Human Services
        OFFICE OF 

   INSPECTOR GENERAL 





     HOSPITAL CLOSURE: 1992 

                      OF'FICE OF                           GENERAL
The mission of the Office of Inspector General (OIG), as mandated by Public Law             as
amended, is to protect the integrity of the Department of Health and Human Services'
programs as well as the health and welfare of beneficiaries served by those program. This
statutory mission is        out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
       of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends                   to
correct them.

                                       OF              SERVICES            .
The        Office of Audit                    provides all auditing         for HHS, either by
conducting audits with its own audit resources or by               audit work done by others.
Audits examine the performance of           programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
             of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                                       OF INVESTIGATIONS
The         Office of Investigations      conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in      program or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of       lead to criminal convictions,
administrative sanctions, or      money penalties. The      also Oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION                            INSPECTIONS
The         Office of Evaluation and Inspections (OEI)conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs.

      Atlanta Regional Office prepared this report under the direction of Jesse J. Flowers,
Regional Inspector General and Christopher           Deputy Regional Inspector General.
Principal OEI staff included:

ATLANTA                                                              HEADQUARTERS

Ron                                                                  Cathaleen
Maureen                                                              Jennifer Antico
Ruth                                                                 Linda
Paula

For additional copies of this report, please call the Atlanta Regional Office at (404)-3314108.
                           EXECUTIVE SUMMARY 


          PURPOSE 

          To describe the extent, characteristics and impact of hospital closure in 1992.

          BACKGROUND

          The closure of hospitals in recent years has generated public and congressional concern.
          According to a number of studies, more hospitals are expected to close in         years.
      -   Questions have been raised about the phenomenon of hospital closure, as well as the
          implications for public policy.

          We released a report in May 1989 describing the nationwide phenomenon of hospital
          closure in 1987. We continued analysis of hospital closure to determine trends and
          effects of the phenomenon. We issued subsequent reports on hospital closure in 1988,
          1989, 1990 and 1991.

          The findings from the previous OIG annual studies were similar. The hospitals that
          closed were small and had low occupancy rates. When the hospitals closed, few patients
          were affected. Most could get medical care nearby.
                                                                                            -
          FINDINGS 

          Our inspection of hospital closure in 1992 produced findings similar to those previously
          reported for 1987-1991.

                Fifty general, acute care hospitals closed, continuing a downward trend in the
                annual number of closures. They were located in 24 States. Seven new general,
                acute care hospitals opened in 1992.

                Twenty-six of the closed hospitals were rural and 24 were urban.

                 Closed hospitals in both rural and urban areas were much smaller than the
                 national averages.

                       Rural hospitals that closed had an average size of 33 beds compared to an
                       average of 77 beds for all rural hospitals nationally.
. .
                        Urban hospitals that closed had an average size of 87 beds compared to an
                        average of 236 beds for all urban hospitals nationally.
Occupancy rates for closed rural and urban hospitals were lower than the national
averages.

       Rural hospitals that closed had an average occupancy rate of 26 percent
       compared to an average of 36 percent for all rural hospitals nationally.

       Urban hospitals that closed had an average occupancy rate of 30 percent
       compared to an average of     percent for all urban hospitals nationally.

For rural hospitals that closed, the average daily census in the year prior to
closure was nine patients. The urban hospitals that closed had an average daily
census of 26 patients.

Medicare utilization among urban hospitals that closed differed slightly from
national averages.

       In urban areas, the average Medicare utilization among hospitals that
       closed was slightly higher than the urban national average (49.4 percent vs.
       46.7 percent).

       In rural areas, no significant differences existed in the average Medicare
       utilization among hospitals that closed and all rural hospitals nationally.

Medicaid utilization among rural and urban hospitals that closed also differed
slightly from national averages.

       In urban areas, the average Medicaid utilization among hospitals that
       closed was slightly higher than the urban national average (13.9 percent vs.
       12.8 percent).

       In rural areas, the average Medicaid utilization among hospitals that closed
       was lower than the rural national average (9.3 percent vs. 13 percent).

Although residents in a few communities had to travel greater distances for
hospital care, most had emergency and inpatient medical care available within 20
miles of a closed hospital.

At the time of our inspection, 27 of the 50 closed hospital facilities (54 percent)
were being used for health-related services. Also, plans were being made for
using 8 of the remaining 23 vacant hospitals for health-related services.
                   TABLE OF CONTENTS 


                           ............................................            i


                   ...................................................
FJNDINGS 


     Extent and Characteristics of Closed Hospitals........................        3


             How Many Closed .........................................             3


             Where Were They .........................................             3

             What Were They Like ......................................            4
              of Hospital Closure .......................................          7

             How Many Patients Were Affected ............................         7


             Are Inpatient Care and Emergency

              Services Available ........................................     	
                                           ...........................
             What Is the Building Used For Now                                    9


             ......................................................               11



     Methodology    ...............................................
     Number of Hospital Closures by State .............................

     Hospital Closures by Hospital Name and Location ....................
                            INTRODUCTION 


PURPOSE 

To describe the extent, characteristics and impact of hospital closure in 1992.



In the past several years, the closure of general, acute care hospitals has generated public
and congressional concern. According to a number of studies, more hospitals are
expected to close in coming years. Questions have been raised about the phenomenon of
hospital closure in the United States, as well as implications for public policy.

We released a report May 1989 describing the extent, characteristics and impact of
hospital closure in the United States in 1987. That inspection showed that 69 hospitals
closed in 1987. Following that inspection, many health policy officials in both the
executive and legislative branches of the Federal government encouraged us to continue
analysis of the phenomenon. They expressed interest in detecting differences in the
(1) rate of hospital closure, (2) characteristics of hospitals that close, and (3) impact of
their closing.

Similar inspections of the phenomenon of hospital closure in 1988 through 1991 showed
a downward trend in the number of closures.

                                 HOSPITAL C L O S U R E

                        -




                  40




                  20



                    "                                                1991
                                                          1990
                                              YEAR
The findings from the 1987, 1988, 1989, 1990 and 1991 inspections were similar. The
hospitals that closed were small and had low occupancy rates. When the hospitals
closed, few patients were affected. Most could get medical care nearby.



We examined hospitals that closed in calendar year 1992.

For purposes of this study, the following definitions were used.

Hospital: A facility that provides general, short-term, acute medical and surgical
inpatient

Closed Hospital: One that stopped providing general, short-term, acute inpatient
services in 1992. If a hospital merged with or was sold to another hospital and the
physical plant closed for inpatient acute care, it was considered a closure. If a hospital
both closed and reopened in 1992, it was not considered a closure.



To determine the extent and impact of hospital closure, we obtained information from
State licensing and certification agencies, State health planning agencies, State hospital
associations, HCFA data bases, officials associated with closed and nearby hospitals, and
local public officials.

We obtained information on the characteristics of all hospitals and those that closed in
1992 from the Hospital Cost Report Information System (HCRIS) maintained by HCFA.

Appendix A describes our methodology in further detail.
                                  FINDINGS 


The Inspector General's study of hospitals closed in 1992 showed that:

      Fifty general, acute care hospitals closed in 1992, continuing a downward trend in
      the annual number of closures.

      Most hospitals that closed were small and had low occupancy rates.

      When a hospital closed, few patients were affected.

      Although residents of a few communities had to travel greater distances for
      hospital care, most had emergency and inpatient medical care available within 20
      miles of the closed hospital.


EXTENT                                 OF

How Many
In       there were 5,243 general, short-term, acute care hospitals in the United States
entered on           data base as participating in the Medicare program. Fifty hospitals
              --
closed in 1992 about 1 percent of all hospitals nationally. Seven fewer hospitals closed
in      than in the previous year.



                                      IN       U.S.:   5,243
                        CLOSED IN                         50


When they closed, the general, acute care inpatient bed supply was reduced by 2,934
beds, or 0.3 percent.



The closed hospitals were located in 24 States. Florida had the greatest number of
closures      followed by California     Mississippi   Texas      Pennsylvania (3) and
Tennessee (3). Nine States had two closures each and the remaining nine States had one
closure each. Appendix B lists the number of hospital closures by State. Appendix C
lists the closures by hospital name and location.
    Nationally, a higher percentage of rural hospitals (1.1 percent) closed in 1992 than did
    urban hospitals (0.8 percent).

                                                     RURAL               URBAN
                               IN THE US.:                                2,895
                          IN                                                 24 (0.8%)




~
    While 50 hospitals closed in 1992, 7 new general, acute care hospitals          , adding 266
    beds to the national supply of beds.

          Were            Hospitals

    -    Hospitals that closed in 1992 were small. More than half the hospitals that closed
       percent) had fewer than 50 beds.




                                            Number of Closed Hospitals

          Number of Beds              Rural           Urban         Total          Percent

              -
            0 29                       16               4            20             40
           30 - 49                      6               4            10             20
           50 99-                       4               5                9          18
           100- 199                    0               11            11             22
          200-299                      0         I      0      I         0
                                                                         ~~    I     0
          300                          0                0                0
          0

                                       26 
            24 
          50             100
Both the rural and urban hospitals that closed in 1992 were considerably smaller than the
average size of rural and urban general, acute care hospitals nationally.


                                HOSPITALS THAT CLOSED
                                     WERE SMALL
                           or
                 000-       .

                       -
                 100   -


                 160   ­

                       -
                  60   -


                           RURAL HOSPITALS




           . Occupancy rates for closed rural and urban hospitals were lower than the
national

                        OCCUPANCY RATES WERE LOW
                    -


                    -

                    -

                    -


                    -

                    -

                    ­

                           -
                           RURAL HOSPITALS      URBAN HOSPITALS


                                                                 AVO
Medicare Utilization: In urban areas, the average Medicare utilization among hospitals
that closed was slightly higher than the urban national average (49.4 percent vs. 46.7
percent). No significant differences existed in the average Medicare utilization among
rural hospitals that closed and all rural hospitals nationally?

                            MEDICARE UTILIZATION


                 60U   -

                       -

                       -


                       -

                       -

                       ­

                           -
                           RURAL


                                        A-
                                                           HOSPITAL8


                                                                    Avo



Medicaid Utilization: In rural areas, the average Medicaid utilization among hospitals
that closed was lower than the rural national average (9.3 percent vs. 13 percent). In
urban areas, the average Medicaid utilization among hospitals that closed was slightly
higher than the urban national average (13.9 percent     12.8 percent)?

                             MEDICAID UTILIZATION


                 *


                 1




                           -
                           R U R A L HOSPITALS


                                       Avo
                                                  UREAN HOSPITALS
               OF

In communities where hospitals closed in 1992, we assessed the
        number of patients affected by closure of hospitals,

        availability of inpatient care and emergency medical services, and

        current use of the closed hospital facility.

How Many                WereAffected
For rural hospitals that closed in    the average daily census in the year       to
closure was nine patients. The urban hospitals that closed had an average daily census of
26 patients.



I
~~         ~        ~
                               WHEN
                        HOW MANY                   WERE
                                                       CLOSED,

                                                   Rural Hospitals      Urban Hospitals
     Average Number of Beds                             32.6                   86.9
     Average Occupancy Rate                            x 26.3%               x 29.6%
     Average Number of Patients                          8.6                   25.7


We analyzed Medicare utilization data to determine the number of elderly patients
affected by hospital closure in       In rural hospitals that closed, five Medicare patients
were in the hospital on an average day in the year prior to closure. In the urban
hospitals that closed, there were 13 Medicare patients on an average day.



                               WHEN
                HOW            MEDICARE PATIENTS WERE
                                                   Rural Hospitals      Urban Hospitals
     Average Patient Census                              8.6                   25.7
     Average Medicare                  Rate            x 52.6%               x 49.4%
     Average Number Medicare Patients                    4.5                   12.7
    I        .        and         Services

We assessed availability of inpatient and emergency medical care in miles from the
closed hospitals to the nearest inpatient and emergency facilities.

:
-                In most communities where a hospital closed in 1992, inpatient hospital
care was available nearby.

Rural Areas: Residents in 16 of the 26 rural communities (62 percent) where a hospital
closed could get inpatient hospital care within 20 miles of the closed hospital.

Residents of 3 rural communities had to travel more than 30 miles for inpatient hospital
care:
                        Arizona         32 miles
              Big Timber, Montana       35 miles
              Culbertson, Montana       38 miles

The frontier community of Culbertson, Montana converted its closed hospital into a
Medical Assistance Facility (MAF). The MAF facility provides up to four days of limited
inpatient services. The community of Big Timber, Montana is planning to do the same.

Urban Areas: In      but 3 of the 24 urban communities where a hospital closed in 1992,
residents could get inpatient hospital care within 10 miles of the closed hospital.
Residents of one community who lost their hospital must travel over 20 miles for
inpatient care. For               Washington the nearest hospital is now located 25 miles
away in


                                                                                ~




                                                                 OF CLOSED
                                                              HOSPITALS
        DISTANCE                                          Rural           Urban
        Within 3 Miles                                    2 (8%)        13 (54%)


        11-20 Miles                                      10 (38%)         2 (9%)
        21-30 Miles                                      7
        More than 30 Miles                               3 (12%)
           Services: When a hospital closed, the community lost not only inpatient beds,
but also emergency

             For residents in 21 of 26 rural communities (81 percent) where hospitals
closed in      emergency care facilities were available within 20 miles of the closed
hospitals. Residents of one community must travel more than 30 miles for 24-hour
emergency care. In Holbrook, Arizona the nearest emergency care is located 32 miles
away in           However, Holbrook has an outpatient clinic and a physician.

Urban Areas: In 22 of 24 urban communities (92 percent) where a hospital closed in
     emergency care facilities were within 10 miles from the closed hospital.
remaining 2 communities are within 15 miles of an emergency care facility.

          NEAREST                      SERVICES TO CLOSED HOSPITALS
                                                        NUMBER OF CLOSED
                                                           HOSPITALS
       DISTANCE                                          Rural           Urban
       Within 3 Miles                                    9 (35%)        16 (67%)
       4-10 Miles                                        3 (11%)         6 (25%)
       11-20 Miles                                       9               2
       21-30 Miles
       More than 30 Miles                                                0 (0%)
                          Totals                        26 (100%)       24 (100%)


What    the Building Used For Now

At the time of our review, 27 of the 50 closed hospital buildings (54 percent) were being
used for health-related services. For example:

       Pierce County Hospital in Blackshear, Georgia and Community Memorial
       Hospital in Hartley, Iowa became nursing homes.

       North Gables Hospital in Coral Gables, Florida and            Hospital in Kansas
       City, Missouri are now long term care hospitals.

       Deering Hospital in Miami, Florida closed due to damage as a result of
       Andrew. The hospital was rebuilt and re-opened in April, 1993.
                  Hospital in Lebanon, Tennessee is now                 Specialty Hospital.
       It was converted to an alcohol and drug rehabilitation facility.

       The hospital in Culbertson Montana was converted to a Medical Assistance
       Facility. In addition to providing limited inpatient care, it provides 24-hour
       emergency services and outpatient care. The Office of Inspector General released
       a report on Medical             Facilities (OEI-04-92-00731) in July, 1993.

The following chart illustrates the use of all 50 hospital facilities after closure in 1992.

                              USE OF
                  ~




                                                  NUMBER OF FORMER HOSPITALS'
              USE OF BUILDING                            Rural                  Urban
    Specialty Treatment Facility
        chemical dependency)                               2                       4
    Reopened Hospital                                       1                      1
    Long         Care Facility                             2                       2
    Outpatient                                             8                       9
    Offices                                                 1                      1


  *Duplicate count. In 4 of the 50 former hospitals more than 1 service is now offered.


At the time of our review, plans were being made to use 8 of the remaining 23 vacant
hospitals for health-related services. For example, Umpqua Valley                 Hospital
in Myrtle Creek, Oregon will be converted to a home for the elderly. North
hospital in              Louisiana will be converted to an adolescent psychiatric facility.
Also, plans were being made for five of the closed facilities to reopen as acute care
hospitals.
                                       ENDNOTES 


1. 	   Hospital occupancy rate is defined as the actual number of patient days divided by
       the total bed days available. National occupancy rate is defined as the sum of all
       hospitals’ occupancy rates, divided by the number of hospitals.

2. 	   Average Medicare utilization closed rural and            hospitals is defined as the
       percent of Medicare patient days compared to the total patient days for each
       hospital, summed and divided by the number of hospitals. National average
       Medicare utilization is the percent of Medicare utilization of each hospital,
       summed and divided by the total number of hospitals.

3.     Medicaid utilization is calculated in the same way as Medicare utilization.
                              APPENDIX A 





To determine how many hospitals closed in 1992, we surveyed State licensing and
certification agencies, State hospital associations and State health planning agencies. We
also compiled Health Care Financing Administration (HCFA) data on terminated
providers in 1992. When a closed hospital met the study's definition or when there were
questions, we contacted officials associated with the closed hospitals, officials associated
with hospitals nearest to the closed hospital, and local public officials.

To determine the number of hospitals in the United States, we used the Hospital Cost
Report Information System (HCRIS) maintained by HCFA. We included only general,
short-term, acute care hospitals under Medicare's Prospective Payment System (PPS) in
the universe. There were 5,243 hospitals listed on HCRIS as short-term, acute care,
general hospitals for the eighth year of PPS (PPS 8).

               of

To analyze characteristics of closed hospitals, we used         HCRIS data. Cost
reports were not available for 1 of the 50 closed hospitals because they reported to
Medicare as part of a corporate system, rather than as an individual hospital in the year
prior to closure. For the remaining 49 hospitals, we used the latest pre-closure cost
reports. For example, if a hospital closed in May 1992 and its accounting year was on a
January-December cycle, we used the provider's January 1, 1991 to December 31, 1991
report.

       of

We limited our "impact" analysis to the distance from a closed hospital to the nearest
still-operating hospitals and to emergency services. We obtained data for our analysis
from interviews with the following sources

       Former hospital administrators, board members, and/or staff of closed hospitals
       Hospital administrators and/or staff at the nearest hospitals
       Local police and health officials
       Local government officials
       State health planning agencies
       State certification and licensing agencies
       State hospital associations
APPENDIX B 

                                  APPENDIX C 


                   ~
                                   CLOSURES BY NAME

Hospital Name                                                    I   State   I
Abernethy Memorial Hospital                                          AL          rural
Bull Shoals Community Hospital              Bull Shoals              AR          rural
Huntsville Memorial Hospital                Huntsville                           rural
Community General Hospital                  Holbrook                             rural
     Rivera Community Hospital                   Rivera              CA          urban
Avenal District Hospital                    Avenal                   CA          rural
Medical Center of La Mirada                 La Mirada                CA          urban
         Hospital of Orange County                                   CA          urban
Clay Memorial Hospital                      Green Cove Springs                   urban
North Gables Hospital                       Coral Gables             FL          urban
Hardee Memorial Hospital                    Wauchula                 FL          rural
Deering Hospital                            Miami                                urban
University Hospital and Clinic              Pensacola                FL          urban
Crest Medical Center, Rockmart-Aragon                                GA          rural
Pierce County Hospital                      Blackshear               GA          rural
Community Memorial Hospital                                                      rural
Forest City Community Hospital              Forest City                          rural
Spearville District Hospital                Spearville               Ks          rural
   John Primary Care Hospital                  John                  Ks          rural
North Claiborne Hospital                                             LA          rural
Doctors Hospital                            Detroit                  MI          urban
Detroit Osteopathic Hospital                Highland Park            MI          urban
Wells Hospital                              Wells                    MN          rural
          Hospital                          Kansas City              MO          urban
Madden Community Hospital                   Madden                   MS          rural
Shelby Community Hospital                   Shelby                   MS          rural
Smith County General Hospital               Raliegh                  MS          rural
Methodist Hospital of Stone County                                   MS          rural
Roosevelt Memorial Hospital                 Culbertson                           rural
Sweet Grass Community Hospital              Big Timber                           rural
Kennedy Memorial Hospital of        Brook   Saddle Brook             NJ          urban
Columbia-Greene Medical Center                                       NY          rural
   Francis Hospital of Buffalo              Buffalo                  NY          urban

                                                                 I           I
                    ~   HOSPITAL
                        ~                     I
                                             BY NAME AND                         I
Hospital Name                                  City              State   Urban
          Park Medical Center                 Portland           OR      urban
          Valley Community Hospital           Myrtle Creek       OR      rural
Medical College                   Division    Philadelphia       PA      urban
Carbondale General Hospital                   Carbondale         PA      urban
Westmoreland            Hospital              Ligonier .         PA      urban
Estelline Community Hospital                  Estelline          SD      rural
Hancock County Hospital                       Sneedville         TN
                                              Lebanon            TN      urban
Warren Regional Hospital                                         TN      rural
Gulf Coast Hospital                                                      urban
                -
Medical Center Gladewater                     Gladewater                 urban
Bridgeport Hospital                           Bridgeport                 rural
Lake Cliff Hospital                           Dallas                     urban
Jefferson Hospital                            Alexandria         VA      urban
Snoqualmie Valley Hospital                    Snoqualmie         WA      urban
Community Hospital                                               WA      urban
Doctors Hospital                              South Charleston           urban
